                                                       UNITED STATES
                                 SECURITIES AND EXCHANGE COMMISSION
                                                WASHINGTON , D.C.          20549


    OFFI CE O f"
INSPECTOR GENERAL

                                                   MEMORANDUM

                                                          July 15,2013

          TO:               Anne K. Small
                            General Counsel, Office of the General Counsel

                            Jeffery Heslop
                            Chief Operating Officer, Office of the Chief Operating Officer

                            Tom Bayer
                            Director, Chief Information Office, Office of Information Technology

          FROM:             Carl W. Hoecker           ~~/          /  ·
                            Inspector General, Office of Inspector Gen'-e-ra-r---- -

          SUBJECT:          Investigative Memorandum IM-13-002: Disclosure ofNonpublic Information

                  The Office of Inspector General (OIG) recently conducted an investigation regarding a
          leak of nonpublic information. Specifically, articles published by a third-party media outlet
          contained information that was considered to be nonpublic and had been redacted from
          versions of a report made available to the public. In the course of its investigation, the OIG
          found evidence that the author of the articles received nonpublic information that had been
          made available only to Securities and Exchange Commission (SEC) employees, but did not
          identify the individual that leaked the information.'

                The U.S. Office of Government Ethics ("OGE") Standards of Ethical Conduct for
          Employees of the Executive Branch state:

                            An employee shaJI not ... allow the improper use of nonpublic
                            infonnation to further his own private interest or that of another,
                            whether through advice or recommendation, or by knowing
                            unauthorized disclosure.

                   5 C.F.R. § 2635.703(a).

               The SEC's Regulation Concerning Conduct of Members and Employees and Former
          Members and Employees of the Commission provides that:

                           A member or employee of the Commission shall not ...
                           [d]ivulge to any unauthorized person or release in advance of

          1
            "The OJG has identified the leaking ofnonpublic information as a recurring problem; it had previously
          investigated other instances in which nonpublic SEC information was leaked to the press.
                                                                  1
               authorization for its release any nonpublic Commission
               document, or any information contained in any such document
               or any confidential information.

       17 C.F.R. § 200.735-3(b)(2)(i).

        SEC Administrative Regulation 18-2, Press Relations Policies and Procedures,
provides guidance to SEC staff who may have occasion to deal with the news media. It
states:

               It is a violation of the SEC's conduct regulation, and may be a
               violation of other SEC rules and of provisions of the securities
               laws, for any employee to reveal nonpublic information unless
               specifically authorized to do so by formal SEC action, either
               directly or through delegated authority. This prohibition
               includes, but is not limited to, any information regarding an
               SEC law enforcement investigation, whether formal or
               informal; and any information regarding internal SEC
               documents, such as staff memoranda to the SEC.

       SECR18-2, Section 8.5 (Nonpublic Information) (July 31, 2005).

        To ensure that all SEC employees continue to be aware of their duty to protect
nonpublic SEC information from unauthorized disclosure, the OIG is making the following
recommendations to the Office of General Counsel (OGC), the Office of the Chief Operating
Officer (OCOO), and the Office of Information Technology (OIT). Within the next 45 days,
please provide the OIG with a written corrective action plan (CAP) that addresses these
recommendations. The CAP should include information such as the name of the designated
responsible official or point of contact for the recommendations, estimated timeframes for
completing required actions, and milestones identifying how the recommendations will be
addressed.

       Recommendation 1

       The Office of the General Counsel, in consultation with the Ethics Counsel and other
relevant divisions or offices, should advise employees, through training, correspondence, and
other means, that Securities and Exchange Commission employees are expressly prohibited
from disclosing nonpublic information unless specifically authorized to do so.

       Recommendation 2

       The Office of the General Counsel, in consultation with the Ethics Counsel and other
relevant divisions or offices, should develop a schedule to provide periodic training and
reminders to staff regarding their obligation to protect nonpublic information and prevent its
unauthorized release.


                                               2
       Recommendation 3

        The Office of the Chief Operating Officer, in consultation with the Office of the
General Counsel, should review the agency's policies and procedures for safeguarding non-
public and sensitive information to determine possible control improvements that could
prevent and/or detect distribution of such information beyond that limited to those to which
access is deemed necessary.

       Recommendation 4

       The Office oflnformation Technology, in consultation with the Office of the Chief
Operating Officer and the Office of the General Counsel, should explore the development and
implementation of an information technology control that would incorporate an audit feature
for agency systems or shared drives that contain sensitive information.


cc:    Mary Jo White, Chair
       Elisse B. Walter, Commissioner
       Luis A. Aguilar, Commissioner
       Troy A. Paredes, Commissioner
       Daniel M. Gallagher, Commissioner
       Erica Williams, Deputy Chief of Staff, Office of the Chairman
       Shira Pavis Minton, Ethics Counsel, Office of the Ethics Counsel
       Darlene Pryor, Management and Program Analyst, Office of the Chief Operating
            Officer




                                              3
